                           OFFICE OF INSPECTOR GENERAL
                          CORPORATION F O R NATIONAL AND
                               COMMUNITY SERVICE


                               OIG Audit Report Regarding
                      Corporation for National and Community Service
                            Evaluation of Information Systems
                                      Pursuant to the
                       Government Information Security Reform Act

                               OIG Audit Report Number 02-35
                                      September 16,2002




                                          Prepared by:

                                         KPMG, LLP
                                      200 1 M Street, NW
                                     Washington, DC 20036

             Under Corporation for National and Community Service OIG Contract
                         With the General Services Administration
                             GSA Contract No. GS-23F-8 127H
                            Order Number CNSIG-02-G-0007



This report was issued to Corporation management on September 16, 2002. Under the laws and
regulations governing audit follow up, the Corporation must make final management decisions on
the report's findings and recommendations no later than March 16, 2003, and complete its corrective
actions by September 16, 2003. Consequently, the reported findings do not necessarily represent the
final resolution of the issues presented.
                                  Office of Inspector General
                        Corporation for National and Community Service
                     Performance Audit of Information Systems Pursuant to
                   the Government Information Security Reform Act (GISRA)

                                                  Table of Contents


KPMG LETTER REPORT

 RESULTS IN BRIEF ............................................................................................1

 PROJECT OBJECTIVES ...................................................................................
                                                                                                     -2

 METHODOLOGY .............................................................................................. .2

FY 2002 GISRA REPORT

 EXECUTIVE SUMMARY - RESPONSES TO OMB QUESTIONS ................1

      GENERAL OVERVIEW.. ............................................................................. .2

      RESPONSIBILITIES OF AGENCY HEAD .................................................. 3

      RESPONSIBILITIES OF AGENCY PROGRAM OFFICIALS .................... 7

      RESPONSIBILITIES OF AGENCY CHIEF INFORMATION
      OFFICER ........................................................................................................8


 APPENDIX A - CHART 1 - GISRA OVERALL ASSESSMENT ................A-1
    SUMMARY

 APPENDIX B - GISRA ASSESSMENT SUMMARY OF
 AGENCY-WIDE POLICIES AND PROCEDURES ...................................... B-1

 APPENDIX C - GISRA ASSESSMENT SUMMARY OF LOCAL
 AND WIDE AREA NETWORKS ..................................................................C-1

 APPENDIX D - GISRA ASSESSMENT SUMMARY OF
   MOMENTUM ........................................................................................... D- 1

 APPENDIX E - GISRA ASSESSMENT SUMMARY OF SYSTEM FOR
 PROGRAMS, AGREEMENTS AND NATIONAL PARTICIPANTS ........... E-1
September 16,2002

Russell George
Inspector General
Corporation for National and Community Service
Washington, DC 20525

Dear Mr. George:

At your request, KPMG LLP (KPMG) conducted a performance audit of the Corporation for
National and Community Service's compliance with the Government Information Security
Reform Act (GISRA) and the implementing guidance issued by the Office of Management
and Budget (OMB) in OMB Memorandum M-02-09. GISRA focuses on the management of
each agency's information security program, and directs that information security
vulnerabilities and their remediation be explicitly considered when the agency annually
considers its budget needs, priorities and allocation of funding. As required by OMB, our
evaluation used Special Publication 800-26, Information Security Self-Assessment Guide,
issued by the Department of Commerce, National Institute of Standards and Technology
(NIST), in conjunction with the corollary CIO Council's Federal Information Technology
Security Assessment Framework. The objectives of our evaluation were 1) to assess
compliance of the Corporation's management of its information security program, 2) to assess
compliance of the Corporation's operational and technical implementation of its information
security program, and 3) to test the effectiveness of the Corporation's operational and
technical implementation of its information security program.
Results in Brief
The GISRA assessment this year showed that the Corporation has made a few modest
improvements in its security policies and procedures documentation, but has continued to
place its primary emphasis on the operational aspects of maintaining information security and
on implementing e-Grants, a major new application system. OMB's GISRA guidance directs
agencies to adopt the NIST Security Self-Assessment, or an equivalent tool that heavily
emphasizes the need to document an agency's security policies, procedures and practices, and
to document that agency personnel review and verify their implementation. Achieving the
level of documented procedures and verification envisioned by GISRA and the NIST Security
Self-Assessment poses a substantial challenge for a small agency like the Corporation.
During the past year, these documentation requirements did not receive as much of the
Corporation's attention as its operational security concerns. However, the lack of incidents
and the results of external penetration testing demonstrate that the Corporation's critical
systems were effectively protected.
Office of Inspector General
Corporation for National and Community Service
Page 2

An underlying condition that affects the Corporation's ability to comply with all GISRA
requirements is the consistent lack of Information Technology (IT) resources. The
Corporation's small IT staff places priority on operational matters and keeping pace with
technological change. It often has little or no residual capacity for improving documentation
and procedures. That has been especially true in FY 2002, when the Corporation developed a
new application system to support one of its most significant missions, grants management.
Current Corporation security policies generally instruct that there be compliance with GISRA,
however, the accompanying procedures have not been updated to reflect the expanded
responsibilities of program officials and the need for routine, annual security assessments
using the NIST self-assessment methodology.           In early FY 2001 as part of the re-
accreditation of its systems, the Corporation had a contractor perform a risk analysis,
vulnerability assessment and an update to the system security plan for each of its systems.
That work substantially met the intent of the GISRA requirement for assessments. In mid-
August 2002 a contractor was engaged to conduct a GISRA assessment based on the NIST
methodology.
The lack of any security incidents or breaches in FY 2002 indicates that at an operational
level the Corporation has maintained effective security for its systems. However, it does not
have security consistently integrated into its planning, budgeting, documented procedures and
routine testing as envisioned by GISRA legislation and regulation.



Our objectives were to conduct an independent evaluation of the Corporation's information
security program and practices, to test the effectiveness of the Corporation's security control
techniques, and to ascertain the Corporation's degree of compliance with the Government
Information Security Reform Act (GISRA) and implementing guidance from OMB.

                                                                                         *-.---

OMB Memorandum 02-09 requires the use of the NIST "Security Self-Assessment Guide for
Information Technology Systems", NIST Special Publication 800-26 (The NIST Guide) and
the corollary CIO Council's "Federal Information Technology Security Assessment
Framework" (The Framework). Together they provide a vehicle for a consistent and effective
measurement of the security status for a given asset.
The NIST Guide provides specific questions that identify the control criteria against which
agency policies, procedures and security controls are evaluated.
The Framework is divided into five levels: Level 1 of the Framework reflects that an asset
has documented security policies. At Level 2, the asset also has documented procedures and
controls to implement the policies. Level 3 indicates that procedures and controls have been
implemented. Level 4 shows that the procedures and controls are tested and reviewed. At
Level 5, the asset has procedures and controls that are fully integrated into a comprehensive
Office of Inspector General
Corporation for National and Community Service
Page 3


life cycle program and into the strategic planning and resource allocation processes of the
agency. The evaluation of the Corporation's assets was performed in accordance with the
NIST Guide methodology in the same four areas that were done in FYO1:

   Momentum (the Corporation's financial management system)
   SPAN (System for Programs, Agreements and National Service Participants)
   The Corporation's Network
   Agency-wide policies and procedures that are not specific to an individual system
The Web Based Reporting System (WBRS) that is due to be replaced in FY03 and the
e-Grants system that is just becoming operational were not included in the evaluation.
In addition to the review of policies, procedures and practices, a Vulnerability and Penetration
Assessment was performed on the Corporation's external and internal networks. The external
testing showed no weaknesses in perimeter security defenses; however, internal testing of the
network and servers uncovered a few procedural lapses that were easily remedied, but
potentially serious if discovered by the wrong parties.
The results of the KPMG evaluations that were done using the NIST Guide's methodology
are summarized in Appendices A through E, following the Executive Summary that contains
responses to OMB7squestions. (Detailed information to support each rating for each criteria
is contained in the workpapers.) In Appendix A, Chart 1 shows the overall results for all four
evaluations.
We conducted our audit in accordance with auditing standards generally accepted in the
United States of America and the standards applicable to performance audits contained in
Government Auditing Standards, issued by the Comptroller General of the United States.



This report is intended solely for the information and use of the Office of the Inspector
General, the management of the Corporation for National and Community Service, the Office
of Management and Budget, and the United States Congress and is not intended to be and
should not be used by anyone other than these specified parties.




Felipe Alonso
Partner. KPMG LLP
                   OFFICE OF INSPECTOR GENERAL
          CORPORATION FOR NATIONAL AND COMMUNITY SERVICE

                                  FY 2002 GISRA Report
                                Responses to OMB Questions
                                    Executive Summary

Summary


The GISRA assessment this year showed that the Corporation has made a few modest
improvements in its security policies and procedures documentation, but has continued to
place its primary emphasis on the operational aspects of maintaining information security and
on implementing e-Grants, a major new application system. OMB's GISRA guidance directs
agencies to adopt the NIST Security Self-Assessment, or an equivalent tool that heavily
emphasizes the need to document an agency's security policies, procedures and practices, and
to document that agency personnel review and verify their implementation. Achieving the
level of documented procedures and verification envisioned by GISRA and the NIST Security
Self-Assessment poses a substantial challenge for a small agency like the Corporation.
During the past year, these documentation requirements did not receive as much of the
Corporation's attention as its operational security concerns. However, the lack of incidents
and the results of external penetration testing demonstrate that the Corporation's critical
systems were effectively protected.
An underlying cause for this is probably the consistent lack of Information Technology (IT)
resources. The Corporation's small IT staff places priority on operational matters and
keeping pace with technological change. It often has little or no residual capacity for
improving documentation and procedures. That has been especially true in FY 2002, when
the Corporation developed a new application system to support one of its most significant
missions, grants management.
Although IT systems are relied upon for all of its major missions, CNS employees with IT
responsibilities comprise only about 1.5 % of the total number of employees (9 out of more
than 600). Contractor staff also support IT functions, but all together the IT staff is less than
3% of the total. While it is not the only factor, the limited number of IT resources greatly
hinders the Corporation's ability to comply with all GISRA requirements.
Current Corporation security policies generally instruct that there be compliance with GISRA,
however, the accompanying procedures have not been updated to reflect the expanded
responsibilities of program officials and the need for routine, annual security assessments
using the NIST self-assessment methodology. In early FY 2001, as part of the re-
accreditation of its systems, the Corporation had a contractor perform a risk analysis,
vulnerability assessment and an update to the system security plan for each of its systems.
That work substantially met the intent of the GISRA requirement for assessments. In mid-
August 2002 a contractor was engaged to conduct a GISRA assessment using the NIST
methodology.




FY 2002 GISRA Report                       Page 1                        Executive Summary
Ofiice of Inspector General
Corporation for Natio~ialand Coinmuni ty Service



The lack of any security incidents or breaches in FY 2002 indicates that at an operational
level the Corporation has maintained effective security for its systems. However, it does
not have security consistently integrated into planning, budgeting, documented
procedures and routine testing as envisioned by GISRA legislation and regulation.
The vulnerability analysis and penetration testing that were performed on the
Corporation's external and internal networks showed no weaknesses in perimeter security
defenses. However, internal testing of network components and servers uncovered a few
procedural lapses in the installation of commercial-off-the-shelf software that were easily
remedied, but potentially serious if discovered by the wrong parties. Once vulnerabilities
were identified, the Corporation acted promptly, as they usually do, to fix the problems.
During the past year the Corporation has updated the documentation of its Incident
Handling procedures, Systems Development Life Cycle (SDLC) procedures and the user
documentation for the Momentum and SPAN systems. It has also made the Corporation's
Network and Systems Security Plan an attachment to the Corporation's Strategic Plan.
However, the Corporation continues to have weaknesses in the documentation of security
procedures and practices, and in documentation that there is consistent verification and
review of security controls and audit logs.

During FY 2002 the Corporation also made some difficult to implement changes to its
Web Based Reporting System (WBRS) to improve the strength of passwords and related
procedures.
The Corporation has no policies or procedures for the review of outsourced IT functions,
activities, or interconnections. It relies entirely on the security provided by the other
government agency or contractor.
There are no documented procedures for conducting risk assessments. The risk
assessments done in conjunction with system re-accreditations in FY 2001 contain no
assessment of business impact. Additionally, the Continuity of Operations (COOP) Plan
has not been updated or tested since Y2K.

A. General Overview
    1. Total Security Funding

       Per OMB guidance this information is to be provided by the Corporation.
   2. Total Number of Programs and Systems in the Agency and Number Reviewed
        In FYOl:
           The IG used the complete NIST Security Self-Assessment methodology.
           The Corporation re-accredited its systems in accordance with OMB Circular
           A-130. The re-accreditation process covered some, but not all, of the security
           topics contained in the NIST Security Self-Assessment Guide.


FY 2002 GlSRA Report                      Page 2                        Executive Summary
Ol'fice ol' Inspector General
Corporation fbr National and Cornn~utiityService


       In FY 02:
           The IG used the complete NIST Security Self-Assessment methodology.
           The CIO used the NIST Security Self-Assessment methodology.

                                                      FYOl         FY02
       a. Total number of a ~ e n c vmom-ams.           3           3
       b. Total number of agency systems.               4           5
                                                   CIO 1 IG     CIO 1 IG
       c. Total number of programs reviewed.        3      3     3     3
       d. Total number of systems reviewed.         4      3     4     3

       Programs:       AmeriCorps, Seniorcorps, Learn and Serve
       Systems:        Momentum, SPAN, WBRS, e-Grants*, LAN
       * e-Grants, the Corporation's new grants management system, is included in the
       OIG's GISRA assessment for 2002 as a system, although it achieved only limited
       operational status in June 2002 and will be tested with a very limited number of
       grant applications prior to September 30,2002. The Corporation's GISRA
       assessment does not count e-Grants as an operational system, because e-Grants
       will not become fully operational until FY 2003. The Corporation will fully
       assess and accredit e-Grants system during FY 2003.

      Material Weakness in Policies, Procedures, or Practices


        a. Number of material weaknesses reported.                  0           0
        b. Number of material weaknesses repeated in FY02.          0           0


B. Responsibilities of A ~ e n c yHead
   1. Specific Steps by the Agency Head to set forth the Security Act's
      responsibilities for the CIO and Program Officials
       The paragraph below is an excerpt from the Corporation's Network and Computer
       Security Policy #376, effective July 2001. It is the only documented policy
       guidance to the CIO and Program Officials concerning their responsibilities for
       carrying out the Government Information Security Reform Act (GISRA).
            "The Government Information Security Reform Act requires
            Federal agencies to ensure that: each major system has a security
            plan; each responsible program official reviews that plan
            annually; and an independent evaluation of that review is
            conducted annually. The Corporation will use the accreditation
            work described below as the basis of this review process every


FY 2002 GlSRA Report                     Page 3                         Executive Summary
O f h x o f Inspector C;cncral
C'orporation [or National and Community S c ~ i c e


           three years. In the intervening two years, each responsible
           program official, with the assistance of the staff of the Chief
           Information Officer, will prepare a brief review of changes made
           to the system since the past accreditationlre-accreditation. They
           then will certify whether the security controls described in the
           accreditatiodre-accreditation are still adequate.      The Chief
           Information Officer will arrange for the independent review of
           those certifications."
       How such steps are implemented and enforced
       Corporation management states that security responsibilities and actions of the
       CIO and Corporation program officials are included as part of their individual
       performance evaluations and were reviewed in this fiscal year.
       IT Investment Decisions
       Major operating components of the Corporation cannot make an IT investment
       decision without the Corporation CIO's concurrence.
   2. How the head of the agency ensures that the agency's information security
      plan is practiced throughout the life cycle of each agency system:
       The Corporation relies on an independent contractor to periodically conduct risk
       assessments, to update system security plans and to evaluate security controls.
       Upon receipt of the contractor's reports, the Corporation re-accredits its systems.
       Such accreditation first occurred in 1997, and was re-performed in August 2001.
       In FY 2002, the Corporation's systems were not re-accredited; however, the
       Corporation has a contract to have that done before December 3 1,2002.
       During the course of FY2002 the Corporation developed and put into limited
       production, a new system that for the first time automates its grants management
       processes, a major part of the Corporation's mission. Corporation management
       has contracted to have the initial risk assessment, vulnerability analysis and
       security plan performed later this year.
       Specific and direct actions to oversee the performance of 1) agency program
       officials and 2) the CIO to verify that such officials are ensuring that security
       plans are up-to-date and that security plans are practiced throughout the
       lifecycle of each system
       Modifications to three of the Corporation's systems were made during the course
       of implementing the new grants management system. The Corporation has a
       contract to re-perform risk assessments, vulnerability analyses and updates to the
       system security plans for these three systems before December 3 1, 2002.




FY 2002 GlSRA Report                     Page 4                        Executive Summary
Officc ol' Inspector Cicueral
('orporation for National and Cotnlnullity Service


   3. How the agency has integrated its information and information technology
      security program with its critical infrastructure protection responsibilities,
      and other security programs (e.g., continuity of operations, and physical and
      operational security).
       The Corporation has a small information technology staff that is responsible for
       all information security, disaster recovery and continuity of operations matters.
       There are no separate staff nor different officials responsible for any type of
       security program.
   4. Has the agency undergone a Project Matrix review?
       The Corporation has not done a Project Matrix Review. However, The
       Corporation has a single communications network, and considers all of its
       systems to be critical, except those that are small desktop systems. All of the
       Corporation's systems are within one network security perimeter, with only a very
       limited number of external connections.
   5. How the agency head ensures that the agency has documented procedures
      for reporting security incidents and sharing information regarding common
      vulnerabilities
       The Computer Incident Response Guidelines, effective August 2001, document
       the Corporation's procedures for identifying and responding to security incidents.
       They define the types of incidents, the roles of organizational members (e.g., end
       users, the Information System Security Officer (ISSO), Computer Emergency
       Response Team, etc.), and its six stage structured approach to responding to
       computer security incidents.         The Deputy Chief Information Officer is
       responsible for the external reporting to the Federal Computer Incident Response
       Center and the notification of the Corporation's Inspector General.

       Procedures for external reporting to law enforcement authorities and to the
       General Services Administration's Federal Computer Incident Response
       Center (FedCIRC)

       The guidelines state that the Deputy CIO and the ISSO will notify the Inspector
       General if there is evidence of criminal activity. There are no specific procedures
       contained within the guidelines related to how the Deputy CIO determines which
       events will be reported to FedCIRC.
       Actual performance

       1 a. Total number of agency components        1 55 (field offices and services
         including bureaus, field activities.          centers)
         b. Number of agency components with incident Incident handling and
         handling and response capability.             response capabilities are
                                                       centrally supported by CNS


FY 2002 GlSRA Report                      Page 5                       Executive Summary
Office of Inspector (;enera1
Corporation fbr Natiorlal and Community Sc~vicc


                                                          HQ OIT staff for all field
                                                          offices and service centers
                                                          that utilize the CNS LAN.
       c. Number of agency components that report                       1
       to FedCIRC.
       d. Do the agency and its major components          Per Corporation
           share incident information with FedCIRC in     management there have been
           a timely manner consistent with                no incidents to report in
           FedCIRC and OMB guidance?                      FY02.
       e. What is the required average time to report                4 hours
           to the agency and FedCIRC following an
           incident?
       f. How does the agency, including- the             Corporation management
       programs within major components, confirm          states that patches are
       that patches have been tested and installed in a   reviewed and tested prior to
       timely manner?                                     installation into the
                                                          Production environment.

                                                 FYOl
       g. By agency and individual       There were no            There were no
       component, number of              successful intrusions.   successful intrusions.
       incidents (e.g., successful and
       unsuccessful network              There is no known        There is no known
       penetrations, root or user        requirement to           requirement to
       account compromises, denial       maintain information     maintain information
       of service attacks, website       related to the number    related to the number
       defacing attacks, malicious       and types of             and types of
       code and virus, probes and        unsuccessful             unsuccessful
       scans, password access)           attempted intrusions.    attempted intrusions.
       reported by each component
                                         If such a requirement    If such a requirement
                                         were defined, the        were defined, the
                                         Corporation has          Corporation has
                                         stated it would          stated it would
                                         comply.                  comply.
        h. By agency and individual      Per Corporation          Per Corporation
        component, number of             management, there        management, there
        incidents reported externally to were no reportable       were no reportable
        FedCIRC or law enforcement. incidents.                    incidents.




FY 2002 GlSRA Report                     Page 6                        Executive S~~rnrnary
Oftice of Inspecror General
('orporation for National and Community Service



C.      Responsibilities of Agency Program Officials

     1. Have agency program officials assessed the risk to operations and assets
        under their control, determined the level of security appropriate to protect
        such operations and assets, maintained an up-to-date security plan (that is
        practiced throughout the life cycle) for each system supporting the
        operations and assets under their control, and tested and evaluated security
        controls and techniques?
        The Corporation relies on an independent contractor to periodically conduct risk
        assessments, to evaluate security controls and to update system security plans.
        Upon receipt of the contractor's reports, the Corporation re-accredits its systems.
        Such accreditation first occurred in 1997, and was re-performed in August 2001.
        In FY 2002, the Corporation's systems were not re-accredited; however,
        Corporation management has stated it intends to do so before December 3 1,2002.
        At the end of August 2002, a contractor began assessing the Corporation's
        systems, using the NIST Security Self-Assessment Guide methodology.

        Actual Performance

                       Corporation for National and Community Service

         Total Number of Agency Systems
                                                         FYOl     FYOl FY02        FY02
                                                           #        ?"'       #      %
         a. Systems that have been assessed for risk.
         b. Systems that have been assigned a level
         of risk after a risk assessment has been
         conducted (e.g., high, medium, or basic).
         c. Systems that have an up-to-date security
         plan.
         d. Systems that have been authorized for
         processing following certification and
         accreditation.
         e. Systems that are operating without
         written authorization (including the absence
         of certification and accreditation).
         f. Systems that have the costs of their
         security controls integrated into the life
         cycle of the system.
         g. Systems for which security controls have
         been tested and evaluated in the last vear.
         h. Systems that have a contingency plan.


FY 2002 GlSRA Report                      Page 7                          Executive Summary
OfXcu of Inspector General
Corporation for National and Community Service


        I i.   Systems for which contingency plans that 1     4    1   100%    1   4       1 80% 1
             have been tested in past year.
             AGENCY TOTAL                                     4        100%        4        80%

            The 20% of the Corporation systems not tested in FY02 relates to the new
            e-Grants system that achieved limited operational status in June 2002.
            (See explanatory note on page 3 above.)

     2. Contractor Provided Services or Services Provided by Another Agency

                        Cor~orationfor National And Communitv Service
        I                                                             I FYOl           I   FY02   I
             a. Number of contractor/agency operations or facilities.    5                  5
             b. Number of contractor/agency operations or facilities     5                  5
                reviewed.

            Contractors and other government agencies:
               Aguirre CorporationlInterliant Inc.
               DO1 National Business Center
               USDA National Finance Center
               Digex
               Sungard


D.          Responsibilities of Agency Chief Information Officer
     1. Has the agency CIO:
            Adequately maintained an agency-wide security program;
            The lack of any security incidents or breaches in FY 2001 and FY 2002 indicates
            that at an operational level the Corporation has maintained effective security for
            its systems. However, it does not have security consistently integrated into
            planning, budgeting, documented procedures and routine testing as envisioned by
            GISRA legislation and regulation.
            Ensured the effective implementation of the program and evaluated the
            performance of major agency components;
            The Corporation has no components outside the headquarters facility with any
            significant IT capacity. The headquarters facility is small enough for the CIO to
            daily observe its operations.




FY 2002 GiSRA Report                          Page 8                          Executive Summary
Ot'iicc of inspeclor General
<'orpot-ation for National and Cornrnunity Scrvicc


       Ensured the training of agency employees with significant security
       responsibilities
       In addition to the security training that all CNS employees receive, information
       technology (IT) technical staff receive additional specialized security training
       according to job responsibilities and needs. They attend technical security
       training classes and conferences, and subscribe to on-line alert sources to further
       their knowledge of security and remain current with the rapidly evolving game of
       cat and mouse that information security has become. In 2002, six IT security
       specialists have attended specialized security training classes and conferences.


        a. Other than GAO or IG audits
        and reviews, how many agency
        components and field activities
        received securitv reviews?
        b. What percentage of                 100% through           100% through
        components and field activities     automated means.       automated means.
        have had such reviews?
        c. Number of agency                   Approx. 700             Approx. 700
        employees including contractors.
        Number and percentage of
        agency employees including
        contractors that received security
        training.
        e. Number of employees with
        significant security
        responsibilities.
        f. Number of employees with
        significant security
        responsibilities that received
        specialized training.
        g. Briefly describe what types
                                   ..      Seminars, Classes,     Seminars, Classes,
        of security training- were         Conferences            Conferences on
        available.                                                Security and
                                                                  Information
                                                                  Assurance.
         h. Total costs for providing
         training described in (g).

       The Corporation maintains its systems as a single entity which is composed of 55
       locations. Since the IT resources for all locations are centrally provided, audits
       and reviews that are conducted are inclusive of all 55 locations.




FY 2002 GlSRA Report                      Page 9                       Executive Summary
Oflice of lnspecmr General
Corporation f'or National and C'ommunity Service



        i. Do agency POA&Ms account for all known              The major findings from
        agency security weaknesses including all               the IG's FYO1 GISRA
        components and field activities? If no, why not?       assessment were included
                                                               on the Corporation's
                                                               single POA&M.
        j. Has the CIO appointed a senior agency               There is one Security
        information security official?                         Officer for the
                                                                Corporation.
       All system users are required to receive system security training prior to being
       granted initial access to the Corporation's systems. In addition the Corporation
       maintains a database that records yearly participation in security training and
       disables user accounts if that training is not taken within the specified time period.

   2. Contractor Provided Services or Services Provided by Another Agency


       I a.Number of contractor                I           5          I          5
        operations or facilities.
        b. Number of contractor                            5                      5
        operations or facilities reviewed.         Reviewed through       Reviewed through
                                                   automated means.       automated means.

       Contractors and other government agencies:
          Aguirre Corporatiodhterliant Inc.
          DO1 National Business Center
          USDA National Finance Center
          Digex
          Sungard
   3. Has the agency CIO fully integrated security into the agency's capital
      planning and investment control process? Were security requirements and
      costs reported on every FY03 capital asset plan the exhibit 53 submitted by
      the agency to OMB.
       The Corporation did report estimated security costs as part of the FY 2003 exhibit
       53 submission and again as part of the FY 2004 submission. In the budget
       submission itself only certain costs are specifically identified such as security
       training, accreditatiodGISRA contracts and personnel. All other costs, such as
       security software, hardware and software maintenance are included under
       consolidated support items.

       Actual performance
                                                                      FY03           FYO4
         a. Number of capital asset plans and justifications           4              4
         submitted to OMB?


FY 2002 GlSRA Report                         Page 10                        Executive Summary
Officc of Inspector General
Corporation f'or National and Community Service


           b. Number of capital asset plans and justifications        0            0
           submitted to OMB without requisite security
           information and costs?
           c. Were security costs reported for all agency            Yes          Yes
           systems on the agency's exhibit 53?
           d. Have all discrepancies been corrected?                 No           No
           e. How many have the CIOIother appropriate official        4            4
       /   independently validated prior to submittal to OMB?    1




F Y 2002 GlSRA Report                     Page I I                         Executive Summary
                       APPENDIX A




FY 2002 GISRA Report
Office of Inspector General
Corporation for National and Community Service

                                                                                        Chart 1      -     Overall GlSRA Assessment Summary

                                              LevelI                                          Level 2                                       Level 3                                          Level 4                                         Level 5
                                                                                                                                     Implemented Procedures                            Tested and Reviewed                               Fully Integrated
                                       Documented Policy                          Documented Procedures                                   and Controls                               Procedures and Controls                         Procedures and Controls
                         L




                               ,gs 8p
    Control Objectives       $
                             '          9
        MAPTAWMEW        '01     '02    '01   '02   '01   '02   '01   '02   '01   '02   '01    '02   '01    '02    '01   '02   '01   '02   '01   '02   '01   '02   '01   '02   '01   '02   '01   '02   '01   '02   '01   '02   '01   +02   '01   '02   '01   '02   '01   '02




FY 2002 GISRA Report                                                                                              Page A-I                                                                                                                        Appendix A
Office of Inspector General
Corporation for National and Community Service



Note on reading Chart 1
In Chart 1 above, the CIO Council Framework Levels are shown as column headings
with the individual Corporation assets that were evaluated shown diagonally below them.
The NIST Guide's control criteria are shown as row headings. The control criteria fall
into three general groupings: Management Controls, Operational Controls and Technical
Controls.
In the main body of the charts a "Yes" means that the criteria for the specific control
objective at the specific Framework Level were met. A "Yes*" means that some
weaknesses were observed, but the criteria were generally met. A "No" means the
criteria were not met in some significant respect. The chart has similar ratings shaded
the same tone. The black areas are not relevant.
A similar chart in each of the following appendices shows the evaluation results for each
system.




FY 2002 GISRA Report                     Page A-2                               Appendix A
                       APPENDIX B




PY 2002 GISRA Report
Office of Inspector General
Corporation for National and Community Service


             AGENCY-WIDE
                       POLICIESAND PROCEDURES
                GISRA Assessment Summary
                         FY 2002


The Corporation for National and Community Service (CNS) maintains both WAN and
LAN connections for its employees, contractors, and the classrooms of the ArneriCorps
National Civilian Community Corps (NCCC). There are more than 800 computers in use
on the CNS network. The Corporation's WAN connects LANs at the Corporation's
regional service centers, NCCC campuses, and state offices with the Corporation's
headquarters. Regional service centers have local network servers. However, the
majority of the Corporation's network servers are located at Corporation headquarters in
Washington, DC. These servers also provide email and Oracle services to the entire
WAN. The Corporation has continuous connection to a disaster recovery site in
Herndon, VA for immediate cut-over in case of an emergency. The Corporation's
headquarters is connected to the disaster recovery site via a dedicated T1 line.
The Corporation uses Momentum as its financial management system. Momentum is an
Oracle based proprietary system developed by AMS. The Web Based Reporting System
(WBRS) is a Lotus Notes Domino program developed to help State commissions and
other grantees provide financial and program status information to the Corporation.
Momentum and WBRS are both managed at remote data centers. The System for
Programs, Agreements, and National Service Participants (SPAN) is an Oracle based
system used to manage the National Service Trust and to provide AmeriCorps member
eligibility and service information.
The senior CNS official responsible for agency-wide information technology policies and
procedures is the Chief Information Officer, Dave Spevacek.
The methodology used for this GISRA assessment is the CIO Council's Federal
Information Security Self-Assessment Framework. The Self-Assessment Framework
requires the use of the control criteria found in NIST Special Publication 800-26.
The remainder of this report summarizes the key strengths and weaknesses for
management, operational, and technical controls. Each weakness is classified with a
severity rating of major, medium or minor. Special weight was given to those areas that
GISRA directly addresses.




FY 2002 GISRA Report                    Page B-1
Office of Inspector General
Corporation for National and Community Service



                                                  Chart 2   - Agency-Wide - GISRA Assessment Summary
                        I              LevelI           I
                                                        I
                                                                        Level 2       I          Level 3         I         Level 4           I           Level 5                I
                                                                                          Implemented Procedures    Tested and Reviewed              Fully Integrated
                             Documented Policy              Documented Procedures
                                                                                               and Controls
                                                                                                  -   -   -        Procedures and Controls       Procedures and Controls
                                                                                                                                                                                I
                                                        I


 Control Ohinctivn?;        FYOI   I   FY02   I         I   FYOI   I   FY02   I       I    FYOI   IFYO21         I   FYOI IFYO21             I   FYOI   I   FY02   I
11. Risk Manaaement
12. Securitv Controls

kt. Authorize

15. Securitv plan




13. Production 110      I   NIA    I   NIA    I                                                                                                                                 I




FY 2002 GISRA Report                                                              Page B-2                                                                         Appendix B
Office of Inspector General
Corporation for National and Community Service




Strengths: Ln accordance with OMB Circular A-130, the CNS Computer Security Policy
requires that risk assessments be conducted every three years or when major system
changes occur. In conjunction with the re-accreditation process, risk analyses were
conducted for all of CNS's mission critical systems and network in FYOI. Similar re-
accreditations began in August 2002. Corporation program officials are required to
accept responsibility for the risks identified to mission critical systems and for the level
of security provided to mitigate those risks. CNS has a documented security plan that
identifies security related activities that are to be performed, their frequency, and the
responsibilities for performance.
Weakness: CNS does not have documented procedures for conducting risk assessments.
CNS relies upon the guidance in OMB Circular A-130 (severity: medium). The most
recent risk assessments performed for the Corporation have not included a business
impact analysis (severity: medium).




Strengths: Per the CNS computer security policy, user access is restricted based upon "a
need to know". Users' access is restricted to only the information required to perform
their jobs and as authorized by their supervisors. CNS requires that access request forms
be completed and approved by management prior to granting an employee access to the
CNS Network or applications. Background investigations are completed for all CNS
employees.
Portable fire extinguishers are located in Corporation office spaces, and an automated fire
suppression system is installed in the building. In the event of a power outage, the
Corporation has an Unintermptible Power Supply that will allow for the orderly shut
down of the network. The CNS policy on "Safeguarding Sensitive Information and
Documents" provides users with guidelines for storage, disposal and handling of sensitive
information and documents.
Weakness: Risk assessments for Corporation facilities to identify threats, vulnerabilities
and potential business impacts are not required by CNS's security policy. CNS relies
upon the guidance in OMB Circular A-130 (severity: medium).




Strengths: Access to the CNS network and applications is granted on a need-to-know
basis. Users are not granted emergency or temporary access. All users must adhere to
the CNS authentication policies and procedures. Users are required to obtain supervisory
authorization to obtain access to applications residing on the CNS network.



FY 2002 GISRA Report                      Page B-3
Office of Inspector General
Corporation for National and Community Service




Weakness: There is no policy or procedure that requires CNS users to use strong
passwords (i.e. passwords with a combination of letters, numbers, and special characters).
Periodically, IT security management uses security tools to detect user accounts with
weak passwords. Users with weak passwords are instructed to modify their passwords
immediately. The version of MS Windows currently on many of the workstations does
not provide an automated method for central enforcement of strong passwords. The
Corporation is in the process of upgrading the MS Windows software on all workstations.
(severity: medium)




F Y 2002 GISRA Report                    Page B-4                               Appendix B
                       APPENDIX C




FY 2002 GISRA Report
Office of Inspector General
Corporation for National and Community Service


                   LOCALAND WIDEAREANETWORKS
                    GISRA ASSESSMENTSUMMARY



The Corporation for National Service (CNS) Network consists of a local area network
(LAN) in the headquarters office, with a high speed Frame-Relay network provided by
MCI for remote Regional Service Centers, State Offices, National Civilian Community
Corps (NCCC) campuses and remote processing sites. Web servers reside on the public
side of the Corporation Network outside the headquarters firewall, and are provided by
DigEx. A single high speed Internet connection through the firewall is provided for all
Corporation users. Some dial-in service is provided for remote offices through a server-
controlled modem pool. The Corporation's website, I/http:www.cns.gov, is managed by
Digex.

The Office of Information Technology (OIT) provides all administrative and problem
support for IT equipment installed in remote offices.       OIT monitors network
vulnerabilities, maintains an intrusion detection capability on the network, and
periodically performs its own penetration testing.
Mr. Tom Hanley, Deputy CIO, is the designated program official for the Corporation
Network, and is responsible for overall network security.
The methodology used for this GISRA assessment is the CIO Council's Federal
Information Security Self-Assessment Framework. The Self-Assessment Framework
requires the use of the control criteria found in NIST Special Publication 800-26.
The remainder of this report summarizes the key strengths and weaknesses for
management, operational, and technical controls. Each weakness is classified with a
severity rating of major, medium or minor. Special weight was given to those areas that
GISRA directly addresses.




FY 2002 GISRA Report                    Page C-1                              Appendix C
Office of Inspector General
Corporation for National and Community Service

                                                   Chart 3    -            -
                                                                  Network GISRA Assessment Summary

                      I           Levell       I            Level 2            I
                                                                               I           Level 3
                                                                                              ~   ~
                                                                                                          I         Level 4.          I              -- - -. -5
                                                                                                                                                     I aval             1
                                                                                   Implemented Procedures    Tested and Reviewed              Fully Integrated
                           Documented Policy       Documented Procedures
                                                                                        and Controls        Procedures and Controls       Procedures and Controls
 Control Obiectives       FYOl   I FY02 I          FYOI   I FY02 1                   FYOI IFYO21            FYOI IFYO21                   FYOl   1   FY02    1




FY 2002 GISRA Report                                                   Page C-2                                                                            Appendix C
Office of Inspector General
Corporation for National and Community Service




Strengths: A re-accreditation of the network was completed in February 2001 and is
being performed again in FY02. Various monitoring tools have been enabled to identify
and observe threats and vulnerabilities (i.e. vulnerability analyses and penetration testing
are performed annually). Pro-active measures, such as required security awareness
training, a virus protection program, access controls, and remote site network
management are indications of management's day-to-day attention to security. CNS
implemented a new System Development Life Cycle (SDLC) policy and methodology in
August 2002.
CNS policy requires that each critical system have a system security plan. CNS has
developed such a plan for the network. The corporation's security program, which
includes the IT Network Security Plan, is included as an appendix to the Information
Management Strategic Plan.
In mid-August 2002, the Corporation began a GISRA assessment in accordance with the
NIST Security Self-Assessment methodology and the CIO Council's Federal Information
Technology Security Assessment Framework using contractor personnel..
Weakness: CNS does not have documented procedures for conducting risk assessments.
CNS relies upon the guidance in OMB Circular A-130 (severity: medium). The most
recent risk assessments performed for the Corporation have not included a business
impact analysis (severity: medium).




Strengths: Job descriptions within OIT reflect assigned responsibilities, include
requirements for technical knowledge, skills and abilities, and can be used for
performance evaluations. Access to systems is restricted prior to the completion of the
new employee computer security training and supervisory approval. The computer room
at CNS headquarters, which houses the majority of the network and server components,
is a restricted access facility. Access is restricted to a limited number of authorized
individuals. Visitors must sign in and be escorted by an authorized individual. All
access is logged via the Kastle card key system. The computer room has an
unintermptible power supply that protects against power fluctuations and outages. A
Disaster Recovery Plan was last updated in August 2001. CNS tested its Disaster
Recovery Plan in August 2001 and advised that it plans to conduct another test in
September 2002. Functional users participate in the disaster recovery testing to ensure
the availability and accuracy of critical business applications and data. An ongoing
security awareness program has been implemented. It includes first-time training for all
new employees, contractors, and users, and periodic refresher training thereafter. A new
version of the Computer Incident Response Guidelines was released August 2001. The




FY 2002 GISRA Report                      Page C-3                               Appendix C
Office of Inspector General
Corporation for National and Community Service


CNS Computer Incident Response Guidelines address the conditions and procedures for
involving the CNS Inspector General (IG) or external federal authorities.
Weakness: Risk assessments for Corporation facilities to identify threats, vulnerabilities
and potential business impacts are not required by CNS's security policy. CNS relies
upon the guidance in OMB Circular A-130 (severity: medium). The Disaster Recovery
Plan needs to be updated to reflect changes in the LAN environment (severity: medium).




Strengths: All personnel who are given access to the system, including those needing it
for a limited duration, must follow the standard procedures before being granted access.
Logical access controls are in place for the local and remote network. In addition to
controlling access to the network by users, CNS controls network access by port based on
the MAC address of the PC or server. The Network Security Plan describes numerous
checks that must be made of a variety of security controls, the frequency of the checks
and who is responsible for making them. Review of various audit logs is included in the
list.
Weakness: There is no policy or procedure that requires CNS users to use "strong"
passwords (i.e. passwords with a combination of letters, numbers, and special characters).
Periodically, IT security management uses security tools to detect user accounts with
"weak" passwords. Users with "weak" passwords are instructed to modify their
passwords immediately. The version of MS Windows currently on many of the
workstations does not provide an automated method for central enforcement of strong
passwords. However, the Corporation is in the process of upgrading the MS Windows
software on all workstations (severity: medium).
During our penetration testing, procedures and policies that dictate how Administrator
accounts are to be set-up were not followed. A server 'Administrator' account with a
weak password was detected and compromised. In addition, some database accounts still
had the software vendor's default passwords.         These were also detected and
compromised. When advised of these situations, the Corporation took prompt action to
remedy them (severity: medium).




FY 2002 GZSRA Report                     Page C-4                              Appendix C
                       APPENDIX D




FY 2002 GISRA Report
Office of Inspector General
Corporation for National and Community Service


                              MOMENTUM
                       GISRA ASSESSMENTSUMMARY
                               FY 2002


Momentum is the Corporation's financial management system. It was implemented in
September 1999, and is comprised of 10 modules: Accounts Payable, Accounts
Receivable, Automated Disbursements, Budget Execution, Cost Allocation, General
Ledger, General System, Planning, Project Cost Accounting and Purchasing. The
Momentum computers are located at the Department of Interior's National Business
Center, but Corporation users have access Momentum as if it were a local system.
Momentum was developed by American Management Systems (AMS), who remains
responsible for development, maintenance and configuration control of the application.
Momentum hardware is operated for CNS at the Department of Interior (DOI) National
Business Center (NBC) in Reston, Virginia. CNS has a Service Level Agreement with
NBC. NBC in turn has a contract with AMS for maintenance of the Momentum software.
The Momentum system is connected to the CNS LAN by a dedicated T-1 line.
Data in the Momentum application is critical to CNS financial management. Momentum
provides both comprehensive financial planning capabilities and a means to record
financial transactions. The system provides both detailed and summarized financial
information in a multitude of easily understandable formats to enable users to evaluate
and analyze the financial activities.
The "senior program official" in CNS responsible for Momentum is Gerry Yetter,
Director of Accounting. Wynn Cooper, Financial Systems Team Lead, assists Gerry
Yetter.
The methodology used for this GISRA assessment is the CIO Council's Federal
Information Security Self-Assessment Framework. The Self-Assessment Framework
requires the use of the control criteria found in NIST Special Publication 800-26.
The remainder of this report summarizes the key strengths and weaknesses for
management, operational, and technical controls. Each weakness is classified with a
severity rating of major, medium or minor. Special weight was given to those areas that
GISRA directly addresses..




FY 2002 GISRA Report                   Page D-1                             Appendix D
Office of Inspector General
Corporation for National and Community Service


                                        Chart 4    - Momentum - GISRA Assessment Summary
                            Level 1              Level 2                  Level 3                   Level 4                    Level 5
                                                                   Implemented Procedures    Tested and Reviewed          Fully Integrated
                  Documented Policy   Documented Procedures             and Controls        Procedures and Controls   Procedures and Controls




FY 2002 GISRA Report                                          Page 0 - 2                                                             Appendix D
Office of Inspector General
Corporation for National and Community Service




Strengths: As part of the re-accreditation of Momentum, data sensitivity and integrity
were considered. CNS maintains a system security plan for the Momentum application,
consistent with the CNS Computer Security Policy. The security plan was developed in
accordance with NIST 800-1 8 guidance. Physical safeguards have been established that
are commensurate with the risks of physical damage or access. Security controls for
CNS's mission critical systems, which include Momentum, have been reviewed every
three years in accordance with OMB A-130 re-accreditation requirements. Procedures
for reporting security incidents and weaknesses are in place and linked to the risk
management process.
Weakness: CNS does not have documented procedures for conducting risk assessments.
CNS relies upon the guidance in OMB Circular A-130 (severity: medium). The most
recent risk assessments performed for the Corporation have not included a business
impact analysis (severity: medium). There is no documented procedure for the periodic
review of the operating system's configuration (severity: medium). There is no
documented procedure for determining the sensitivity of the system (severity: minor).
There is no documented procedure for developing and approving a system security plan
(severity: minor).




Strengths: CNS's computer security policy is based on the concept of least privilege,
which requires that users only have access to that information that they require to perform
their job function. Access is limited to individuals at CNS through the use of
identification badges and key cards. Data integrity and validation controls are used to
provide assurance that the information has not been altered and the system functions as
intended. Controls have been implemented to mitigate other disasters such as floods,
earthquakes or fire. CNS has updated and tested its disaster recovery plan in August
2001. A Service Level Agreement exists with the National Business Center (NBC) that
calls for NBC to provide monitoring, maintenance and tracking of configuration changes
for the hardware, system software, database software and telecommunications.
Corporation employees and contractors are required to complete annual security
awareness training. Training requires all CNS IT users to acknowledge rules and
guidelines by which they must abide. CNS has documented and updated Computer
Incident Response Guidelines specifying internal reporting procedures for detected
security incidents.
Weakness: The Business Continuity and Contingency plan dated August 2001 was
prepared initially for Y2K. No significant changes have been made to it. However, the
Corporation does conduct annual tests of its Disaster Recovery Plan. The next testing is
scheduled for September 2002 (severity: medium). No documented procedure exists for
management review of persons granted physical access to sensitive facilities. However,


FY 2002 GISRA Report                     Page 0 - 3                             Appendix D
Office of Inspector General
Corporation for National and Community Service


the Deputy CIO does review the names on the computer center sign-in roster to ensure
that only authorized persons have been granted access (severity: medium). No
documented policy and procedure exists to ensure that access to all program libraries is
restricted and controlled (severity: medium). No documented analysis has been
completed to assess risks (severity: medium). CNS does not have documented
procedures for personnel security controls that meet the NIST criteria (severity: medium).




Strengths: All CNS users are required to identify and authenticate themselves by
providing a valid username and password at the network level. CNS users who have
been granted access to Momentum are required to authenticate to the application by
providing an additional user name and password. All Momentum users are required to
undergo annual Information Systems Security Awareness Training that educates them on
the importance of security. Every transaction processed in Momentum is written to the
transaction journal. Because all transactions are recorded in a journal, there is a
comprehensive audit trail of all transaction-based activity in the system.
Weakness: No documented policies exist to limit the number of invalid access attempts
(severity: minor). Although data owners do review access authorizations, there is no
policy that requires the data owners to periodically review access authorization (severity:
minor). Some CNS user workstations do not automatically log off users and invoke
screensavers after a period of inactivity of a defined length, because the version of MS
Windows currently on these systems is not capable of implementing the automatic logout
feature. The Corporation is in the process of upgrading all workstations to a newer
version of MS Windows (severity: minor).




FY 2002 GISRA Report                     Page 0 - 4                             Appendix D
                       APPENDIX E




FY 2002 GISRA Report
Office of Inspector General
Corporation for National and Community Service


SYSTEMFOR PROGRAMS, AGREEMENTS AND NATIONAL SERVICE
               PARTICIPANTS (SPAN)
            GISRA ASSESSMENT  SUMMARY
                                      FY 2002


The SPAN application was implemented in 1995 to process education award payments
for the ArneriCorps National Service Program. The VISTA Management System (VMS),
integrated into SPAN in March 2001, tracks the status of and makes payments to
participants of the Volunteers in Service to America (VISTA) program. Three dedicated
Windows NT servers within the Corporation Network provide separate production,
development, and testing platforms for SPAN. SPAN is based on an Oracle database
management system, and was developed using Oracle application development tools,
Oracle Forms for data entry screens, Crystal Report Writer and Oracle Reports for report
generation. SQL SECURE Password Manager by BrainTree provides authentication and
access security to SPAN.
SPAN interfaces with Momentum, WBRS, and the Department of the Treasury. Weekly
file uploads to Momentum update Corporation accounting data. SPAN uses electronic
file transfers to receive enrollment data from WBRS, and to provide updated financial
information to WBRS. For the Treasury interface, a SPAN export function creates a
payment file, which is electronically transmitted to Treasury from a stand-alone
workstation using Treasury software. There is no direct connection between SPAN and
Treasury's financial management system.
The senior Corporation program official responsible for SPAN is Charlene Dunn,
Director of Trust Management.
The methodology used for this GISRA assessment is the CIO Council's Federal
Information Security Self-Assessment Framework. The Self-Assessment Framework
requires the use of the control criteria found in NIST Special Publication 800-26.
The remainder of this report summarizes the key strengths and weaknesses for
management, operational and technical controls. Each weakness is classified with a
severity rating of major, medium or minor. Special weight was given to those areas that
GISAR directly addresses.




FY 2002 GISRA Report                    Page E-1                             Appendix E
Office of Inspector General
Corporation for National and Community Service



                                           Chart 5     - SPAN - GlSRA Assessment Summary
                            Level 1               Level 2                      Level 3                   Level 4                      Level 5
                                                                        Implemented Procedures    Tested and Reviewed          Fully lntegrated
                       Documented Policy   Documented Procedures             and Controls        Procedures and Controls   Procedures and Controls




FY 2002 GZSRA Report                                               Page E-2                                                         Appendix E
Office of Inspector General
Corporation for National and Community Service




Strengths: A risk analysis was conducted as part of the SPAN re-accreditation process,
and is included as part of the accreditation document. The re-accreditation was
completed in June 2001. CNS has developed and implemented a security plan for the
SPAN application, in accordance with the CNS Computer Security Policy. The SPAN
Security Plan states that the CNS System Development Life Cycle (SDLC) process was
followed for the implementation, development, and operationlmaintenance phase of the
SPAN life cycle. The SPAN Security Plan also states that the IT Security Representative
was heavily involved with the recent integration of VMS into SPAN.
Weaknesses:       CNS does not have documented procedures for conducting risk
assessments. CNS relies upon the guidance in OMB Circular A-130 (severity: medium).
The most recent risk assessments performed for the Corporation have not included a
business impact analysis (severity: medium). There is no documented procedure for
periodically reviewing the operating system's configuration (severity: medium). There
are no documented policies and procedures for ensuring electronic records are properly
disposed or archived. (severity: minor).




Strengths: CNS computer security policy is based on the concept of least privilege, which
requires that users only be granted access to that information that they require to perform
their job function. Access is limited to individuals at CNS through the use of
identification badges and key cards. Data integrity and validation controls are used to
provide assurance that the information has not been altered and the SPAN system
functions as intended. Controls have been implemented to mitigate other disasters such
as floods, earthquakes or fire. CNS updated and tested its disaster recovery plan in
August 2001. Corporation employees and contractors are required to complete annual
security awareness training. Training requires all CNS IT users to acknowledge rules and
guidelines by which they must abide. CNS has documented and updated Computer
Incident Response Guidelines specifying internal reporting procedures for detected
security incidents.
Weaknesses: The Business Continuity and Contingency plan dated August 2001 was
prepared initially for Y2K. No significant changes have been made to it. However, the
Corporation does conduct annual tests of its Disaster Recovery Plan. The next testing is
scheduled for September 2002 (severity: medium). There are no documented policies
and procedures regarding how data is shared between interconnected systems (severity:
medium). There is no documented analysis completed to access risks (severity: medium).
CNS has incomplete documented procedures for personnel security controls (severity:
medium).




FY 2002 GZSRA Report                     Page E-3                               Appendix E
Office of Inspector General
Corporation for National and Community Service




Strengths: CNS users who have been granted access to SPAN are required to authenticate
to the application by providing an additional user name and password in addition to their
network username and password. All SPAN users are required to undergo annual
Information Systems Security Awareness Training that educates users on the importance
of security. Because every transaction processed in SPAN is written to a journal, there is
a comprehensive audit trail of all transaction-based activity in the system.
Weaknesses: No documented policies exist to limit the number of invalid access
attempts (severity: minor). Although data owners do review access authorizations, there
is no policy that requires the data owners to periodically review access authorization
(severity: minor). Some CNS user workstations do not automatically log off users and
invoke screensavers after a period of inactivity of a defined length, because the version of
MS Windows currently on these systems is not capable of implementing the automatic
logout feature. The Corporation is in the process of upgrading all workstations to a
newer version of MS Windows (severity: minor).




FY 2002 CISRA Report                      Page E-4                               Appendix E
